                   DEPARTMENT OF HOMELAND SECURITY
                                            Office of Inspector General
                                        Atlanta Field Office-Audit Division
                                            3003 Chamblee Tucker Rd
                                                Atlanta, GA 30341

                                                     January 12,2004

MEMORANDUM

TO:                Joseph F. Picciano
                                                 ctor, FEMA Region I1

FROM:


SUBJECT:           Municipality of Naguabo, Puerto Rico
                   FEMA Disaster No. 1247-DR-PR
                   Audit Report No. DA-09-04


The Office of Inspector General (OIG) audited public assistance funds awarded to
the Municipality of Naguabo, Puerto Rico. The objective of the audit was to
determine whether the Municipality accounted for and expended FEMA funds
according to federal regulations and FEMA guidelines.

The Municipality received an award of $2,901,774 from the Puerto Rico Office of
Management and Budget, a FEMA grantee, to remove debris, provide emergency
protective measures, and repair roads and other public facilities damaged as a result
of Hurricane Georges in September 1998. The award provided 90 percent FEMA
funding for nine large projects and forty-one small projects.1The audit covered the
period September 1998 to September 2002. During this period, the Municipality
claimed $3,968,910 (see Exhibit) and received $1,929,375 of FEMA funds. At the
time of the audit, the Municipality had not submitted a final claim.

The OIG performed the audit under the authority of the Inspector General Act of
 1978, as amended, and according to generally accepted government auditing
standards. The audit included test of the Municipality's accounting records, a
judgmental sample of expenditures, and other auditing procedures considered
necessary under the circumstances.


Notice: This report remains the property of the DHS Office of Inspector General (DHS-OIG) at all times and, as such,
is not to be publicly disclosed without the express permission of the DHS-OIG. Requests for copies of this report
should be immediately forwarded to the DHS Office of Counsel to the Inspector General to ensure strict compliance
with all applicable disclosure laws.




1
  According to FEMA regulations, a large project costs $47,100 or more and a small project costs
less than $47,100.
                               RESULTS OF AUDIT 


The Municipality's grant accounting system did not provide adequate details to
support expenditures allocable to FEMA projects. Additionally, the Municipality's
claim included questioned charges of $1,9 16,097 resulting from cost that was
previously disallowed by FEMA, small projects that were only partially completed
or that had errors in funding, and duplication of benefits. The Municipality also did
not perform any work under several small and large projects valued at $226,323.
Funds awarded under those projects should be deobligated and used for other
FEMA disasters.

A. Poor Grant Accounting. Contrary to federal regulations (44 CFR, Section
   13.20), the Municipality did not maintain accounting records to fully account
   for project expenditures. The Municipality established a special account to
   record FEMA project expenditures. However, all expenditures were not
   reflected in the project account. Some expenditures were reported in the
   Municipality's General Fund Account with no reference to the FEMA projects.
   As a result, the accuracy of the Municipality's claim could not be readily
   verified.

   The Municipality did maintain separate file folders that contained contracts,
   invoices and payment vouchers for expenditures related to each FEMA project.
   The OIG used these records to perform the audit.

B. Previouslv Disallowed Costs. The Municipality's total claim of $3,529,000
   under debris removal Projects 09256 ($2,899,000) and 09257 ($630,000)
   exceeded the $1,863,711 award amount for these two projects by $1,665,289.
   This excess cost was previously disallowed by FEMA because the amount of
   debris reportedly removed exceeded the amount verified by FEMA. According
   to FEMA's verification, the Municipality picked-up and disposed of 75,124
   cubic yards of debris. However, the Municipality claimed 179,544 cubic yards,
   or 104,420 excess cubic yards valued at $1,665,289.

    To consider these charges, FEMA requested but did not receive from the
    Municipality support for the additional debris.

    Small Projects with Incomplete Work and Errors in Funding. In accordance
    with federal regulation (44 CFR 206.205), the grantee provided the
    Municipality 100 percent FEMA funding for small projects at the time small
    projects were awarded. This regulation do not require the Municipality to
    specify the amount spent under small projects, but do require the Municipality
    to certify that small projects have been completed in accordance with the
    approved scope of work. Federal payments are to be refunded if all work is not
    completed. The OIG auditors found, as a result of field inspections, that work
    valued at $98,929 under 17 small projects was not performed, as follows:
1. The period to implement three road repair projects lapsed on September 2 1,
   2002. However, as of April 2003, the Municipality had not completed work
   valued at $16,236 under these projects, as illustrated below:


       Project    Amount                                        Activities         Amount
       Number     Received         Sector 1 Wards          Not Implemented        Questioned

        05518         $1 1,679   Parcelas Nuevas, Daguao      Curb and Gutter      $ 2,160
        05527          17,859    LaSiem,ElDuque               Curb and Gutter         2,916
        05536          15,720    Jose Lima, Mariana           Curb and Gutter        11.160

        Total         $45.258

2. The scope of work for several small projects required the Municipality to
   repair roads with 889 tons of asphalt. However, the Municipality
   repaired the roads with 437 tons of asphalt. Accordingly, the OIG
   questions $26,292, the cost of 452 tons of asphalt that was not used.

    Project Amount Asphalt Tons Asphalt Tons          Asphalt Tons Cost Per     Amount
    Number A ~ ~ r o v e dA ~ ~ r o v e d Used           Unused     Units       Questioned




      Total $70.034        &a            432                452                 $26.292

3. Under small Project 055 17, the Municipality received $8,27 1 including
   $2,400 to repair 200 lineal feet of curbs and gutters at 1 3 ' ~Street, Parcelas
   Nuevas. However, the OIG determined that only 20 lineal feet of curbs and
   gutters were repaired. Therefore, the OIG questions charges for 180 lineal
   feet, valued at $2,160.

4. The Municipality received $30,350 under small Project 09946 to repair the
   Municipality's broad walk. The project scope of work included the
   replacement of 728 lineal feet of concrete top, the replacement of 12
   aluminum lights poles, painting 3,600 square feet of the deck, and
   reinstalling 18 concrete benches. However, the OIG determined that
   only the paint and the installation of 17 benches valued at $5,460 were
   completed. Therefore, the OIG questions $24,890, the value of work not
   performed.
   5. Under seven small projects, the OIG determined that the Municipality
      erroneously measured the length of roads resulting in less work being
      performed, and the approval of $29,35 1 of excess FEMA funding for these
      projects. The affected projects are:
                                       Approved         Actual
                                      Square Meters   Square Meters   Excess    Asphalt Cost
           Project      Amount            Road            Road        Square     For Excess
           Number       Auuroved      Measurements    Measurements    Meters   Sauare Meters




           Total


D. Duplication of Benefits. The Stafford Act does not allow duplication of
   benefits between FEMA programs and insurance benefits, or any other disaster
   assistance programs. However, the Municipality received $15 1,879 of FEMA
   funds that were duplicated by other sources.

   Specifically, the Municipality received $58,524 of FEMA funds for repair of
   various roads and the Adolfo Hanni Carrillo Baseball Park. However, $44,381
   of such repairs were also funded by the United States Department of Housing
   and Urban Development (HUD) as follows:

   FEMA                                 Amount           HUD                             Amount
                                        Awarded          Funding                         Ouestioned

                   Road Repairs          $ 5,187
                   Road Repairs             9,360
                   Road Repairs            14,943
                   Road Repairs            10,260
                   Road Repairs            10,788
                   Baseball Park Repairs    7.986
   Total                                                 $167.005                        $44386


   Additionally, the Municipality claimed $101,023 under Project 09950 and
   received $6,498 under Project 05529 for road repairs at the Camino Viejo road
   at Cubuy Ward. However, the OIG determined that the Municipality fully
   implemented the projects with $53,330 received under HUD Project 94-AF-47-
   007. Accordingly, the OIG questions the $107,498 claimed andlor received
   under the two FEMA projects.

E. Large and Small Proiects Not Implemented. The Municipality received awards
   totaling $226,323 for two large projects and four small projects. However, five
   years have elapsed since the disaster occurred and the Municipality had not
   begun or demonstrated any intention to implement the projects. Accordingly,
   the $226,323 awarded under these projects should be de-obligated. The affected
  projects are:
      Project               Amount
      Number                Awarded               Activitv and Location
      05532                 $ 9,975               Road repairs-El Duque Ward
      05542                   18,162              Road repairs-Maizalez Ward
      06454                   35,426              Road repairs-Pena Pobre Ward
      09944                    6,701              Building and other repairs to
                                                  Market Place
                                                  Road repairs-Pena Pobre Ward
                                                  Road repairs-Pena Pobre Ward

      Total




                            RECOMMENDATIONS

The OIG recommends that the Regional Director, in coordination with the grantee:

1. Instruct the Municipality, for future declarations, to implement accounting
   procedures that adequately account for project expenditures.

2. Disallow $1,9 16,097 of questioned costs.

3. De-obligate $226,323 awarded under projects that were not implemented.


      DISCUSSION WITH MANAGEMENT AND AUDIT FOLLLOWUP

The OIG discussed the results of the audit with grantee and FEMA officials on July
10,2003, and with Municipality officials on July 11, 2003. Municipality officials
concurred with findings A, Byand C, but indicated that they wanted to further
research the questioned costs under finding D and E.

Please advise the Atlanta Field Office- Division by March 12,2004, of the actions
taken to implement the OIG recommendations. Should you have any questions
concerning this report, please contact me at (770) 220-5242 or Salvador Maldonado
at (787) 296-3527.
                                                                                EXHIBIT 


                                 Municipality of Naguabo
                              FEMA-Disaster 1247-DR-PR
                         Schedule of Claimed and Questioned Costs
                              ,And Costs to be De-obligated

                                      Large Proiects

                                                           Amount
  Project            Amount           Amount            Questioned1
  Number            Awarded           Claimed          To De-obligate

   04001           $ 107,831
   07397               62,068
   07398               47,910
   09256            1,254,571                                           Finding B
   09257              609,140                                           Finding B
   05540               50,886
   09948              105,933                                           Finding E
   09949               50,126                                           Finding E
   09950              106,553                                           Finding D

 Sub-totals        $2,395,018

                                      Small Proiects
                    $    8,271                          $      2,160    Finding C
                        11,679                                 2,160    Finding C
                                                               2,907    Finding C
                        15,162                                 5,700    Finding C
                         5,187                                 5,187    Finding D
                        37,893                                15,618    Finding C
                         9,360                                 4,560    Finding D
                        17,859                                 2,916    Finding C
                        14,943                                 5,600    Finding D
                         6,498                                 6,498    Finding D
                        17,430                                10,985    Finding C
                         4,680                                 1,300    Finding C
                                                               1,105    Finding C
                         9,975                                 9,975    Finding E
                        10,260                                10,260    Finding D
                         6,384                                 4,959    Finding C
                                                                 684    Finding C
                        15,720                                11,160    Finding C
                                                               1,560    Finding C
                          8,450                                7,475    Finding C
                          5,915                                2,990    Finding C
                                                                 360     Finding C
     05539               10,788                               10,788    Finding D
     05542               18,162                               18,162     Finding E
     06454               35,426                               35,426     Finding E   '

     06456               30,790           30,790
     06458               14,115           14,115
     09943                7,986                                7,986     Finding D
     09944                6,7O 1                               6,701     Finding E
     09946               30,350                               24,890     Finding C
All other Small         146,772                 0                  0
    project(l6 )
       Sub-total    $ 506,756

           Total    $2.901.774
